APPENDIX

Ninth Circuit memorandum affirming denial of motion to suppress .......................... 1
District court order denying motion to suppress ........................................................ 10
Order denying petition for rehearing and rehearing en banc .................................... 23
SLPD search warrant and affidavit ............................................................................ 24
Declaration of SLPD Officer Cesaretti........................................................................ 33
Declaration of ATF Agent Topper ............................................................................... 37

APPENDIX

Case: 18-10473, 05/01/2020, ID: 11677623, DktEntry: 58-1, Page 1 of 9

FILED
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS

MAY 1 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

FOR THE NINTH CIRCUIT

UNITED STATES OF AMERICA,

No.

Plaintiff-Appellee,

18-10473

D.C. No.
4:16-cr-00516-HSG-1

v.
MEMORANDUM*

ANDRE MARTEL WINN,
Defendant-Appellant.

Appeal from the United States District Court
for the Northern District of California
Haywood S. Gilliam, Jr., District Judge, Presiding
Submitted April 17, 2020**
San Francisco, California
Before: BERZON and IKUTA, Circuit Judges, and LEMELLE,*** District Judge.

*

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The case has been submitted on the briefs as of April 17, 2020,
pursuant to FRAP 34(a).
***

The Honorable Ivan L.R. Lemelle, United States District Judge for the
Eastern District of Louisiana, sitting by designation.

AW - 001

Case: 18-10473, 05/01/2020, ID: 11677623, DktEntry: 58-1, Page 2 of 9

Andre Winn appeals the district court’s denial of his motion to suppress and
his conviction for possessing a firearm as a felon under 18 U.S.C. § 922(g). We
have jurisdiction under 28 U.S.C. § 1291.
The district court did not err in upholding the federal search of Winn’s cell
phone pursuant to a search warrant based on evidence that guns purchased by a
suspected Nevada gun dealer had been found in Winn’s residence. Winn argues
that the federal search warrant was invalid both because it was based on evidence
obtained by means of an invalid search of his apartment and because the federal
officers relied on the prior invalid download of information from Winn’s phone by
the San Leandro Police Department (SLPD). We disagree.
First, the SLPD’s initial search of Winn’s apartment was conducted pursuant
to a valid search warrant based on probable cause that evidence relating to a
shooting for which James Williams was the primary suspect would be found in
Winn’s apartment. See United States v. Crews, 502 F.3d 1130, 1136–37 (9th Cir.
2007). The affidavit presented to the magistrate judge established probable cause
that Williams was temporarily residing in the apartment; it recited information
from continuous GPS tracking of Williams’s cell phone that put him in the vicinity
of Winn’s apartment several days after the shooting and stated that police officers
conducting surveillance of Williams observed him entering, exiting, and reentering
2

AW - 002

Case: 18-10473, 05/01/2020, ID: 11677623, DktEntry: 58-1, Page 3 of 9

the apartment, securing the door, and exiting the apartment the following morning.
Given these observations, it was reasonable for the officers to infer that Williams
was temporarily residing at the apartment, which distinguishes this case from the
precedent on which Winn relies, where there was either no apparent connection
between the suspect and the searched premises, or the suspect engaged in only
casual daytime visits to the premises. See United States v. Grandberry, 730 F.3d
968, 976–78 (9th Cir. 2013); Greenstreet v. Cty. Of San Bernardino, 41 F.3d 1306,
1309–10 (9th Cir. 1994); United States v. Bailey, 458 F.2d 408, 412 (9th Cir.
1972).
The dissent’s reliance on Bailey is misplaced. Bailey addressed an affidavit
disclosing that the defendant “had been seen at the house and that [a co-defendant]
was arrested there” six weeks after the crime for which evidence was sought. 458
F.2d at 412. The affidavit included “[n]o facts . . . from which it could be inferred”
that the defendant was more than a casual social guest. Id. Here, police officers’
observations led to the reasonable inference that Williams was an overnight guest
mere days after the alleged shooting, which established a significantly stronger
connection between the crime for which Williams was a suspect and Winn’s
apartment.

3

AW - 003

Case: 18-10473, 05/01/2020, ID: 11677623, DktEntry: 58-1, Page 4 of 9

Our precedent does not require showing that a suspect permanently lives in a
home to establish probable cause that evidence of a crime will be found in that
home. See Crews, 502 F.3d at 1136–37; cf. Grandberry, 730 F.3d at 973 (holding
that a warrantless search of a house was not permitted under the parolee’s parole
search conditions, which expressly applied only to the parolee’s permanent
residence). Based on the police officers’ training and experience, Williams’s use
of the premises less than a week after the shooting established probable cause that
evidence related to the shooting incident would be found at the premises. See
United States v. Garay, 938 F.3d 1108, 1113 (9th Cir. 2019), cert. denied, 140 S.
Ct. 976 (2020); Crews, 502 F.3d at 1136–37.
Moreover, the warrant did not lack sufficient particularity given that it
sufficiently described the items to be seized, including cell phones, and there was
probable cause that the cell phones would contain evidence relating to the shooting
incident. See Garay, 938 F.3d at 1113.
The affidavit’s omission of information that the apartment belonged to
Winn, and that Williams was Winn’s cousin, did not violate Franks v. Delaware,
438 U.S. 154 (1978). Williams’s status as an overnight guest in the apartment
rather than the apartment’s primary resident was not material to the magistrate
judge’s probable cause finding. See id. at 155–56. Moreover, the district court’s
4

AW - 004

Case: 18-10473, 05/01/2020, ID: 11677623, DktEntry: 58-1, Page 5 of 9

determination that the police were not deliberately or recklessly misleading in
omitting this information was not clearly erroneous. Therefore, the district court
did not err in declining to hold a hearing as to whether the search warrant was
supported by probable cause if the omitted evidence had been included.
Second, the seizure of Winn’s cell phone from his person during the SLPD
officers’ initial search does not require exclusion of evidence obtained from the
cell phone pursuant to the federal officers’ warrant. The SLPD would have
inevitably seized Winn’s cell phone, see Nix v. Williams, 467 U.S. 431, 444 (1984),
because after discovering four firearms, multiple high-capacity firearm magazines,
several rounds of various types of ammunition, and several baggies of cocaine in
his apartment, the police would have arrested Winn and searched him incident to
arrest, see United States v. Hartz, 458 F.3d 1011, 1019 (9th Cir. 2006). And the
SLPD would have been entitled to secure the phone “to prevent destruction of
evidence while seeking a warrant.” Riley v. California, 573 U.S. 373, 388 (2014).
Although the SLPD subsequently downloaded information from Winn’s
phone without a warrant, even assuming this search was unlawful, the federal
officers’ affidavit contained no “tainted evidence” derived from that search.
United States v. Nora, 765 F.3d 1049, 1058 (9th Cir. 2014). And the record
supports the district court’s finding that the federal officers would have sought the
5

AW - 005

Case: 18-10473, 05/01/2020, ID: 11677623, DktEntry: 58-1, Page 6 of 9

warrant regardless of the SLPD’s search based on the gun evidence. See Murray v.
United States, 487 U.S. 533, 542 & n.3 (1988). Therefore, the federal warrant was
a “genuinely independent source” of the evidence from Winn’s cell phone. Id. at
542. We conclude that the district court did not err in denying Winn’s motion to
suppress.
We also reject Winn’s argument that there was insufficient evidence
supporting his conviction under 18 U.S.C. § 922(g) because the government did
not present evidence that Winn knew he had been convicted of a crime punishable
by a term of imprisonment exceeding one year at the time he possessed the firearm.
See Rehaif v. United States, 139 S. Ct. 2191, 2194 (2019). Any error in not
adducing evidence on this element of the offense “did not affect [Winn]’s
substantial rights” because Winn’s stipulation to his prior convictions “proved
beyond a reasonable doubt that [he] had the knowledge required by Rehaif.”
United States v. Benamor, 937 F.3d 1182, 1189 (9th Cir. 2019).
AFFIRMED.

6

AW - 006

Case: 18-10473, 05/01/2020, ID: 11677623, DktEntry: 58-1, Page 7 of 9

FILED
United States v. Winn, No. 18-10473

MAY 1 2020

BERZON, Circuit Judge, dissenting:

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

I respectfully dissent. Contrary to the majority’s holding, the warrant
authorizing the SLPD’s initial search of Winn’s apartment was not
supported by probable cause.
The affidavit underlying the warrant alleged that (1) GPS monitoring
located Williams’s cell phone in the vicinity of the apartment, without
saying how many times that occurred, and (2) SLPD detectives observed
Williams at the apartment twice, once around 9:00 p.m. and once the
following morning, without saying the detectives had continued their
surveillance overnight. Although the affidavit mentioned that Williams
came out of the apartment, looked around, and went back in, that detail
adds nothing to support the supposition that he lived there. Under our
precedent, the information contained in the warrant affidavit was
insufficient to establish that Williams had a sufficient connection to the
apartment to provide probable cause for a broad search of the home to find
items connected to Williams’s recent crime.
In United States v. Bailey, 458 F.2d 408 (9th Cir. 1972), for example, two
suspects in a bank robbery were seen separately at the same house on at
1
AW - 007

Case: 18-10473, 05/01/2020, ID: 11677623, DktEntry: 58-1, Page 8 of 9

least four occasions in the weeks following the robbery. We held that
probable cause to search the house for items connected to the robbery was
lacking, because there was insufficient evidence to permit an inference that
the suspects were “other than casual social guests” there. Id. at 412. The
nexus between Williams and Winn’s apartment was weaker, or at least no
stronger, than the nexus in Bailey.
Moreover, the reasons given in the affidavit for expecting to find
evidence of Williams’s crime in Winn’s apartment were tied repeatedly to
the affidavit’s assertions that the apartment was Williams’s “residence,”
and that gang members often keep evidence of gang-related crimes in their
residence. In parolee search cases, we have required much more evidence
than was given here to establish that a dwelling place is a parolee’s
residence. “Even when there is evidence that the parolee has ‘spent the
night there occasionally,’ we have concluded that such evidence is
‘insufficient’ to establish residence.” United States v. Grandberry, 730 F.3d
968, 978 (9th Cir. 2013) (quoting United States v. Howard, 447 F.3d 1257, 1262
(9th Cir. 2006)).
The SLPD’s unlawful search of Winn’s apartment tainted the federal
agents’ later search of Winn’s cell phone and apartment. Absent that
2
AW - 008

Case: 18-10473, 05/01/2020, ID: 11677623, DktEntry: 58-1, Page 9 of 9

original search, the state officers would not have had Winn’s cell phone
and been able to hand it over to the federal agents. And the good-faith
exception does not apply because the federal government has not
established that the SLPD officers conducted the initial search in good
faith. See United States v. Artis, 919 F.3d 1123, 1133 (9th Cir. 2019). The SLPD
officers were less than forthcoming in informing the magistrate judge that
the basis for their belief that Williams resided in the apartment to be
searched was tenuous, and the affidavit’s shortcomings in establishing a
connection between Williams and the apartment were readily apparent. See
Greenstreet v. Cty. of San Bernardino, 41 F.3d 1306, 1310 (9th Cir. 1994).
As I would hold that the district court should have granted Winn’s
motion to suppress the evidence from the federal searches, I would reverse
the conviction, and so dissent.

3
AW - 009

Case 4:16-cr-00516-HSG Document 208 Filed 04/16/18 Page 1 of 13

1
2
3
4

UNITED STATES DISTRICT COURT

5

NORTHERN DISTRICT OF CALIFORNIA

6
USA,

7

Case No.16-cr-00516-HSG-1
Plaintiff,

8

ANDRE MARTEL WINN,

10

Re: Dkt. Nos. 146, 150

Defendant.

11
United States District Court
Northern District of California

ORDER DENYING DEFENDANT’S
MOTION TO SUPPRESS; GRANTING
DEFENDANT’S MOTION TO SEVER

v.

9

12
Pending before the Court are a motion to suppress, Dkt. No. 150, and a motion to sever,

13
14

Dkt. No. 146, by Defendant Andre Winn. For the reasons set forth below, the Court DENIES the

15

motion to suppress and GRANTS the motion to sever.

16

I.

DEFENDANT’S MOTION TO SUPPRESS

17

On January 20, 2016, officers from the San Leandro Police Department (“SLPD”)

18

executed a search warrant at Defendant’s home. See Dkt. No. 150-1, Ex. F, at 4. In his motion to

19

suppress, Defendant contends that the subsequent searches and seizures “were all in violation of

20

the Fourth Amendment,” necessitating suppression of the fruits of those searches. See Dkt. No.

21

150 at 1. It does not appear, however, that the government intends to introduce any of the

22

challenged evidence other than the contents of the phone seized on January 20, 2016 pursuant to

23

the warrant issued that same day. See Dkt. No. 170 at 7 (contending that the Court “need not

24

reach” validity of underlying state warrant to deny Defendant’s motion, because the

25

constitutionality of the subsequent federal warrant is determinative). 1 Accordingly, the Court

26
1

27
28

If the Court’s reading is incorrect, the government should promptly notify the Court, and explain
how the introduction of such evidence would be consistent with its argument that the Court “need
not reach” any issue other than the constitutionality of the federal warrant for the search of the
phone.
AW - 010

United States District Court
Northern District of California

Case 4:16-cr-00516-HSG Document 208 Filed 04/16/18 Page 2 of 13

1

addresses Defendant’s motion only to the extent it challenges the seizure and subsequent searches

2

of his cell phone.

3

A.

4

The Court begins with the SLPD’s initial seizure of Defendant’s phone to determine

5

whether that phone was validly in the state’s possession before it was turned over to federal

6

authorities. Here, Defendant argues that the SLPD’s search of his apartment on January 20, 2016

7

violated his rights under the Fourth Amendment because the underlying search warrant failed to

8

establish probable cause and, moreover, was overbroad. See Dkt. No. 150 at 7-14. Defendant

9

further contends that the SLPD was “deliberately or recklessly misleading” in obtaining this

The SLPD’s Seizure of Defendant’s Phone Was Valid.

10

warrant, negating probable cause or—at the very least—requiring an evidentiary hearing. See id.

11

at 14-17. Defendant’s arguments are not persuasive.

12
13
14

1.

The January 20, 2016 search warrant for Defendant’s home was
supported by probable cause and encompassed Defendant’s cell phone.

The Fourth Amendment protects individuals from unreasonable searches and seizures.

15

U.S. Const. amend. IV. Accordingly, in order for a search warrant to be valid, it “must be

16

supported by an affidavit establishing probable cause.” U.S. v. Stanert, 762 F.2d 775, 778 (9th

17

Cir. 1985). Probable cause amounts to a “‘fair probability’ that contraband or evidence is located

18

in a particular place,” which in turn “depends on the totality of the circumstances, including

19

reasonable inferences, and is a ‘commonsense, practical question.’” U.S. v. Kelley, 482 F.3d 1047,

20

1050 (9th Cir. 2007) (citations omitted). Courts reviewing probable cause determinations are

21

“limited to the information and circumstances contained within the four corners of the underlying

22

affidavit.” Stanert, 762 F.2d at 778 (citation omitted). The standard of review with respect to “a

23

magistrate’s decision to issue a search warrant” is a narrow one: “[T]he duty of a reviewing court

24

is simply to ensure that the magistrate had a ‘substantial basis for . . . conclud[ing]’ that probable

25

cause existed.” Id. at 779 (quoting Ill. v. Gates, 462 U.S. 213, 238 (1983)) (original brackets and

26

ellipses). Courts therefore “may not reverse such a conclusion unless the magistrate’s decision is

27

clearly erroneous.” Id. (citation omitted).

28

Here, the SLPD had probable cause to search Defendant’s home. In this case, the SLPD
AW - 011

2

United States District Court
Northern District of California

Case 4:16-cr-00516-HSG Document 208 Filed 04/16/18 Page 3 of 13

1

sought a search warrant of Defendant’s home believing it was the home of James Williams, the

2

suspect in an unrelated investigation. See Dkt. No. 150-1 at 11 (ECF pagination). Defendant

3

contends that the affidavit underlying the warrant application “did not include facts, evidence or

4

observation sufficient to establish probable cause that the location to be searched was the

5

residence of James Williams.” Dkt. No. 150 at 8. The affidavit states that on January 17, 2016,

6

the SLPD obtained a warrant authorizing “continuous GPS tracking of WILLIAMS[’] cellular

7

phone,” which placed him in the “area of Beaumont Ave and E 32nd Ave in Oakland.” Dkt. No.

8

150-1 at 12. The SLPD located the apartment “after conduct[ing] several surveillances,” and on

9

January 19, 2016 detectives “positively identified WILLIAMS as he was observed exiting one of

10

the apartment doors.” Id. at 12-13. Specifically, detectives observed Williams “exiting [the]

11

apartment door, reentering and securing the door of the apartment.” Id. at 13. On this basis, the

12

SLPD concluded that Williams “[had] dominion and control of the residence and thus [would]

13

have property related to this investigation inside it.” Id. Detectives saw Williams leave the

14

apartment the following morning. See id. The Court finds that the magistrate who authorized the

15

warrant had a “substantial basis” for finding probable cause, based not only on the detectives’

16

observation of Williams at the apartment on January 19 and 20, but on the GPS tracking that

17

placed Williams in the apartment’s vicinity beginning on January 17. Given “the preference to be

18

accorded to warrants,” even in “doubtful or marginal cases,” the Court finds sufficient probable

19

cause. See Mass. v. Upton, 466 U.S. 727, 734 (1984).

20

Defendant next contends that even if the search of his home was proper, the “warrant was

21

unconstitutionally overbroad in its authorization to seize, without any further specification[,]

22

‘cellular telephones, smart cellular phones and electronic [tablets].’” See Dkt. No. 150 at 11. He

23

further argues that even if the warrant were not overbroad, the SLPD’s search exceeded the scope

24

of the warrant. See id. at 12-13. Both contentions are incorrect. “Warrants which describe

25

generic categories of items are not necessarily invalid if a more precise description of the items

26

subject to seizure is not possible.” U.S. v. Mann, 389 F.3d 869, 877 (9th Cir. 2004) (quoting U.S.

27

v. Spilotro, 800 F.2d 959, 963 (9th Cir. 1986)). “While a search warrant must describe items to be

28

seized with particularity sufficient to prevent a general, exploratory rummaging in a person’s
AW - 012

3

Case 4:16-cr-00516-HSG Document 208 Filed 04/16/18 Page 4 of 13

1

belongings, it need only be reasonably specific, rather than elaborately detailed.” Id. (quoting U.S.

2

v. Rude, 88 F.3d 1538, 1551 (9th Cir. 1996)).
Here, the face of the warrant is a sufficient basis upon which to conclude that seizure of

United States District Court
Northern District of California

3
4

Defendant’s phone was proper. Under a heading styled “Property to be Seized,” the warrant listed

5

“[c]ellular telephones, smart cellular phones and electronic [tablets].” Dkt. No. 150-1, Ex. B, at 9

6

(ECF pagination). Further, the underlying affidavit stated that “suspects who[] commit these

7

crimes often use residential and cellular telephones to avoid detection by law enforcement,” and

8

may use phones “that are not subscribed to their own names to avoid detection by law

9

enforcement.” Id. at 11. See also id. at 14 (providing other information that may be gleaned from

10

a seized cell phone, including “evidence of . . . criminal intent” and the identities of “previously

11

unidentified co-conspirators”). The Court finds that the warrant is “reasonably specific” in

12

describing the phones to be seized, particularly in light of the SLPD’s explanation regarding the

13

importance of cell phones in criminal investigations. See id. at 11, 14.

14

2.

15

Defendant fails to make a substantial preliminary showing that the
affidavit supporting the SLPD’s search warrant for his home contained
intentionally or recklessly misleading omissions.

Defendant alternatively seeks a Franks hearing based on his assertion that the search

16
17

warrant contained “two sets of material omissions, which singly and in combination fatally

18

undermined the probable cause for the search of” his apartment. See Dkt. No. 150 at 14. A

19

hearing pursuant to Franks v. Delaware, 438 U.S. 154 (1978) (i.e., a “Franks hearing”), “is an

20

evidentiary hearing on the validity of the affidavit underlying a search warrant.” U.S. v. Kleinman,

21

880 F.3d 1020, 1038 (9th Cir. 2018) (citing U.S. v. Reeves, 210 F.3d 1041, 1044 (9th Cir. 2000))

22

(internal quotation marks omitted). A defendant is entitled to a Franks hearing “if he can make a

23

substantial preliminary showing that (1) the affidavit contains intentionally or recklessly false

24

statements or misleading omissions, and (2) the affidavit cannot support a finding of probable

25

cause without the allegedly false information.” Id. (citing Reeves, 210 F.3d at 1044) (internal

26

quotation marks omitted). “If both requirements are met, the search warrant must be voided and

27

the fruits of the search excluded.” Id. (quoting U.S. v. Perkins, 850 F.3d 1109, 1116 (9th Cir.

28

2017)).
AW - 013

4

Case 4:16-cr-00516-HSG Document 208 Filed 04/16/18 Page 5 of 13

United States District Court
Northern District of California

1

Defendant argues that the affidavit underlying the SLPD’s search warrant made two

2

material omissions. Neither warrants a Franks hearing. First, Defendant contends that the SLPD

3

failed to mention in the affidavit that it “filled out a pen register application that pre-dated recent

4

changes in California Law,” rendering the outdated application “no longer legally sufficient for

5

phone location tracking.” See Dkt. No. 14. But Defendant fails to demonstrate that such an

6

omission rises to the level of recklessness or intentional conduct, rather than simple negligence.

7

Calling an omission “reckless” does not make it so. See Dkt. No. 150 at 16. Second, Defendant

8

argues that the SLPD omitted from the affidavit the fact that its officers “knew that the primary

9

resident of the apartment was someone other than James Williams.” See id. at 16. In support of

10

his argument, Defendant cites video footage from the search which shows an officer telling

11

Defendant, “We have a search warrant for your residence, for your cousin.” See Dkt. No. 150, Ex.

12

E. Defendant contends that “this omission ‘manipulated the inferences’ as to the extent to which

13

probable cause applied to the whole apartment or not.” See id. at 16 (citation omitted).

14

First, the Court finds that Defendant overreads the significance of the snippet of video

15

footage, and does not believe it supports the conclusion that the officers knew that Williams was

16

not the “primary resident” of the apartment. In any event, Defendant again simply fails to present

17

any basis for concluding that such an omission (even if it is assumed) was intentional or reckless

18

as required under Franks. Finally, the addition of this purportedly omitted information would not

19

have negated the existence of probable cause as established by the totality of the affidavit. See

20

Kleinman, 880 F.3d at 1038 (in considering the materiality of an alleged omission, reviewing court

21

asks “whether probable cause remains once the evidence presented to the magistrate judge is

22

supplemented with the challenged omissions”). Accordingly, the Court finds that the SLPD’s

23

seizure of Defendant’s phone pursuant to the January 20, 2016 warrant was lawful.

24
25

B.

Defendant Has Failed to Show That the Federal Search of His Phone Was
Tainted.

26

The legality of the seizure notwithstanding, Defendant next argues that the SLPD searched

27

his phone without applying for or receiving a warrant, which tainted the subsequent federal search

28

of his phone. See Dkt. No. 150 at 18-21. Defendant also asserts that the six-month delay between
AW - 014

5

Case 4:16-cr-00516-HSG Document 208 Filed 04/16/18 Page 6 of 13

1

the SLPD’s seizure of his phone and the federal search was unreasonable, see id. at 21-22, and

2

again requests a Franks hearing, this time due to alleged omissions in the federal search warrant

3

for his phone, see Dkt. No. 189 at 16-17. The Court disagrees.

4
5

United States District Court
Northern District of California

6

1.

Even assuming that the SLPD searched Defendant’s phone without a
warrant, the subsequent search by ATF was untainted.

“The exclusionary rule encompasses ‘evidence seized during an unlawful search,’ and also

7

the ‘indirect . . . products of such invasions.’” U.S. v. Gorman, 859 F.3d 706, 716 (9th Cir. 2017)

8

(quoting Wong Sun v. U.S., 371 U.S. 471, 484 (1963)) (original ellipses). As such, “[e]vidence

9

derivative of a Fourth Amendment violation—the so-called ‘fruit of the poisonous tree’—is

10

ordinarily ‘tainted’ by the prior ‘illegality’ and thus inadmissible, subject to a few recognized

11

exceptions.” Id. (citations omitted). To show that evidence is fruit of the poisonous tree, a court

12

looks to “the causal connection between the illegality and the evidence,” or whether the illegality

13

“was the impetus for the chain of events leading to the” evidence. See id. (citing U.S. v. Johns,

14

891 F.2d 243, 245-46 (9th Cir. 1989)). It is the government’s burden to show that such evidence

15

is admissible. See id. (citation omitted).

16

As relevant here, the warrant listed as a place “to be searched” a “white LG touch screen

17

phone located on the person of” James Williams. See Dkt. No. 150-1, Ex. B, at 8 (ECF

18

pagination). During the search, however, SLPD officers seized Defendant’s cell phone, a “black

19

Alcatel Onetouch.” See id., Ex. F, at 4. The SLPD subsequently searched Defendant’s phone on

20

an unspecified date, and on July 1, 2016 provided Special Agent Robert Topper of the Bureau of

21

Alcohol, Tobacco, Firearms & Explosives (“ATF”)—who was conducting a separate federal

22

investigation of Defendant—with the phone, as well as a CD containing the phone’s contents. See

23

Dkt. No. 173 (Declaration of Robert Topper, or “Topper Decl.”) ¶¶ 9-10. In keeping with his

24

practice of “seek[ing] federal warrants to search items and obtain evidence for use in the federal

25

case, even if those items may have previously been searched by local law enforcement,” id. ¶ 13,

26

Agent Topper “prepared an affidavit setting forth probable cause to search Winn’s cell phone” on

27

July 29, 2016, id. ¶ 14. He “did not include any of the information derived from SLPD’s

28

download of the phone or [his] review of a copy of that download.” Id. That same day, he “swore
AW - 015

6

United States District Court
Northern District of California

Case 4:16-cr-00516-HSG Document 208 Filed 04/16/18 Page 7 of 13

1

out and obtained a federal warrant authorizing [his] search of Winn’s phone,” id. ¶ 18, and

2

subsequently completed the search, see id. ¶ 19.

3

Even assuming (without deciding) that the SLPD’s search of the phone was warrantless or

4

exceeded the scope of the warrant, and was unconstitutional, Defendant has failed to show that the

5

federal warrant for the search of his phone was tainted by the SLPD’s search in any way. His

6

argument that the “record indicates an impermissible taint” is speculative, and appears to be based

7

entirely on the assertion that there was some unspecified communication between the SLPD and

8

federal investigators. See Dkt. No. 150 at 20 (“SLPD illegally searched Winn’s phone and

9

communicated with ATF, strongly raising the prospect of a tainted federal investigation.”).

10

Further, the affidavit by Agent Topper underlying the federal warrant referenced the SLPD’s

11

search of Defendant’s phone, and specifically stated that “the probable cause set forth [in the

12

federal affidavit] was not derived from any of the recovered contents of the Subject Telephone.”

13

Dkt. No. 150-2, Ex. J, at 2 n.1; see also id. (“This affidavit is submitted in an abundance of

14

caution to provide independent probable cause for ATF agents to search WINN’s cellular

15

telephone.”). In response, Defendant contends only that “[t]his bare assertion does not . . . end the

16

inquiry into whether the contents of [his] cellphone were revealed to or in some way directed

17

federal investigators such that the unconstitutional search by the SLPD served as the ‘impetus for

18

the chain of events’ leading to the federal search.” See Dkt. No. 150 at 21 (citation omitted).

19

Defendant fails to provide any authority in support of that principle, however, ending his argument

20

on that conclusory note. See U.S. v. Lingenfelter, 997 F.2d 632, 640 (9th Cir. 1993) (finding

21

defendant’s contention that an officer would testify regarding his drug-sniffing dog’s false positive

22

alert “too speculative to constitute a sufficient preliminary showing to trigger a Franks hearing”).2

23

The Court accordingly finds that the federal investigation into and search of Defendant’s phone

24

was not tainted.
For this reason, Defendant’s argument that the good faith exception does not apply is

25
26
2

27
28

Defendant contends in the first line of his reply brief that no evidentiary hearing is warranted, see
Dkt. No. 189 at 1, but then advances a contradictory conclusion on this point later in the same
brief, see id. at 17 (asserting that the government’s “blatant and material omissions require a
Franks hearing”).
AW - 016 7

United States District Court
Northern District of California

Case 4:16-cr-00516-HSG Document 208 Filed 04/16/18 Page 8 of 13

1

inapposite: here, there is no need to apply the exception because the government expressly

2

disclaimed reliance on the SLPD’s search in its application for a warrant. Thus, the cases of

3

United States v. Vasey, 834 F.2d 782 (9th Cir. 1987), and United States v. Wanless, 882 F.2d 1459

4

(9th Cir. 1989), are distinguishable and do not govern in these circumstances. These cases stand

5

for the proposition “that the good faith exception does not apply where a search warrant is issued

6

on the basis of evidence obtained as the result of an illegal search.” See Wanless, 882 F.2d at 1466

7

(citing Vasey, 834 F.2d at 789). But in both of those cases—unlike the instant case—the officers

8

actually incorporated illegally obtained evidence into the affidavit underlying the search warrant

9

application. See Vasey, 834 F.2d at 788 (“All evidence Officer Jensen seized during the illegal

10

warrantless search was tainted and should not have been included in the affidavit for a search

11

warrant.”); Wanless, 882 F.2d at 1467 n.13 (“[T]he information given to support the telephonic

12

warrant included . . . the evidence seized during the unlawful first investigative search.”). Also

13

unlike this case, in Vasey and Wanless the officer who conducted the initial illegal search and the

14

officer who subsequently applied for a warrant using the fruits of that illegal search were the same

15

person, precluding any genuine claim of independent good faith. See Vasey, 834 F.2d at 784-85;

16

Wanless, 882 F.3d at 1460-62. Instead, this case is akin to United States v. Bah, where the officer

17

“intentionally omitted any discussion of [illegally obtained] evidence from the warrant affidavit,”

18

and thus “permitted the magistrate judge to make an untainted probable cause determination.” See

19

794 F.3d 617, 633-34 (6th Cir. 2015). In Bah, as is the case here, the court found that “exclusion

20

is not warranted.” See id. at 634.

21

Moreover, the Court does not find that law enforcement’s seizure of Defendant’s phone

22

was unreasonably prolonged. “An unreasonable delay between the seizure of a package and

23

obtaining a search warrant may violate the defendant’s Fourth Amendment rights.” U.S. v.

24

Sullivan, 797 F.3d 623, 633 (9th Cir. 2015) (citing U.S. v. Van Leeuwen, 397 U.S. 249, 252-53

25

(1970)). The “touchstone” of this inquiry is “reasonableness”: courts “determine whether the

26

delay was ‘reasonable’ under the totality of the circumstances, not whether the Government

27

pursued the least intrusive course of action.” Id. (citations omitted). “Such determinations are

28

made on a case-by-case basis.” Id. (citing Van Leeuwen, 397 U.S. at 253). Here, the totality of
AW - 017

8

Case 4:16-cr-00516-HSG Document 208 Filed 04/16/18 Page 9 of 13

1

the circumstances indicates that the seizure of Defendant’s phone was not unreasonably delayed.

2

As stated by the author of the SLPD’s search warrant, “once an item of evidence, like Winn’s cell

3

phone, is seized and logged in as evidence in a case, in order for a civilian or defendant to get that

4

item back he or she must petition the court and obtain a court order for the SLPD to release that

5

item.” Dkt. No. 171 (Declaration of Steven Cesaretti) ¶ 13. “The SLPD will not release any item

6

of evidence without such a court order,” id., and here, there is no indication that Defendant sought

7

the release of his phone, see id. ¶ 15.

8
9

United States District Court
Northern District of California

10

2.

Defendant fails to make a substantial preliminary showing that the
affidavit supporting ATF’s search warrant for his phone contained
intentionally or recklessly misleading omissions.

Defendant’s only remaining theory is that the “affidavit in support of the federal warrant

11

contained material misrepresentations and omissions,” warranting a Franks hearing. See Dkt. No.

12

189 at 16-17. The Court disagrees, and finds that Defendant has failed to make the required

13

substantial preliminary showing. He contends there are two “blatant and material omissions” in

14

the affidavit by Agent Topper underlying the federal search warrant for Defendant’s phone. See

15

Dkt. No. 189 at 17. First, he argues that Agent Topper failed to include in his affidavit the fact

16

that the SLPD “had searched the contents of Mr. Winn’s cellphone, told him about the contents of

17

the cellphone, and provided him with a copy of the CD download.” Id. (citing Topper Decl. ¶¶ 9-

18

12). Second, in an apparent reference to Agent Topper’s review of the CD containing the phone’s

19

contents provided by the SLPD, Defendant notes that Agent Topper failed to inform the magistrate

20

“that [he] had already searched Mr. Winn’s cellphone at the time that he applied for the federal

21

warrant and ‘did not see anything that appeared significant to the ATF investigation.’” Id. (citing

22

Topper Decl. ¶ 12) (emphasis removed).

23

Even recognizing the fact that Agent Topper also stated in his declaration that at the time,

24

he “believed that Winn’s phone and the other electronic items that SLPD had searched had been

25

searched pursuant to a valid warrant or based on other valid authority,” Topper Decl. ¶ 10,

26

Defendant fails to make the required substantial preliminary showing to warrant a Franks hearing.

27

Most pertinent is Agent Topper’s express, sworn statement in his affidavit that any probable cause

28

was not derived from the SLPD’s search of Defendant’s phone. Dkt. No. 150-2, Ex. J, at 2 n.1.
AW - 018

9

Case 4:16-cr-00516-HSG Document 208 Filed 04/16/18 Page 10 of 13

1

Defendant does not contend that this statement was “intentionally or recklessly false,” or present

2

any evidence supporting that conclusion.

United States District Court
Northern District of California

3

Moreover, while the Topper Declaration does include the phrase Defendant quotes,

4

Defendant fails to acknowledge at least two key additional facts. First, Defendant omits the

5

beginning of the quoted portion of the declaration, which clarifies that Agent Topper “scanned the

6

contents of the discs and did not see anything that appeared significant to the ATF investigation.”

7

Topper Decl. ¶ 12 (emphasis added). Further, the same paragraph notes three sentences later that

8

Agent Topper “did notice that on the download for Winn’s phone there were a number of

9

photographs of firearms and there appeared to be text messages about firearms,” id., which is fully

10

consistent with the clear thrust of the declaration, see id. ¶¶ 5 (even before receiving the phone,

11

Agent Topper believed based on his training and experience “that Winn’s phone would be a

12

significant piece of evidence”), 17 (“before the ATF contacted SLPD to determine if they still had

13

possession of Winn’s cell phone, that phone was, in my mind and based on my training and

14

experience, likely to be the most fruitful item to search for evidence,” such that Agent Topper

15

would have applied for a warrant for the phone in any event). Thus, whatever the phrase cited by

16

Defendant might be speculated to mean in isolation, adding the content described in the Topper

17

Declaration to the affidavit would not have negated the existence of probable cause. Defendant

18

accordingly has not met his burden of showing an entitlement to a Franks hearing.

19
20

C.

Defendant’s Motion to Suppress Statements He Made During the January 20,
2016 Search of His Apartment is Denied Without Prejudice.

21

Defendant also argues for the suppression of “all statements [he] made in response to

22

police questioning during [the January 20, 2016] search.” See Dkt. No. 150 at 17-18. Citing

23

Miranda v. Arizona, 384 U.S. 463 (1966), Defendant suggests that because he was in police

24

custody during the search of his home, and because the police failed to give him the required

25

warnings prior to “interrogat[ing]” him, any statements he made to the police must be suppressed.

26

See id. While it is true that under Miranda, “the Fifth Amendment privilege against self-

27

incrimination prohibits admitting statements given by a suspect during ‘custodial interrogation’

28

without a prior warning,” see Ill. v. Perkins, 496 U.S. 292, 296 (1990), Defendant has failed to
AW - 019

10

Case 4:16-cr-00516-HSG Document 208 Filed 04/16/18 Page 11 of 13

1

identify the statements he is seeking to suppress—either in his motion or his reply brief. This

2

omission precludes the Court from determining whether the statements were made in the context

3

of a “custodial interrogation.” Accordingly, Defendant’s motion to suppress his statements is

4

denied without prejudice.

5

II.

Defendant next moves to sever Counts One, Two, and Three of the second superseding

6
7

indictment from the remaining counts for trial. See Dkt. No. 146 at 2. He contends that those

8

counts are improperly joined under Federal Rule of Criminal Procedure 8. See id. The Court

9

agrees.

10

United States District Court
Northern District of California

DEFENDANT’S MOTION TO SEVER

An indictment “may charge a defendant in separate counts with 2 or more offenses if the

11

offenses charged . . . are of the same or similar character, or are based on the same act or

12

transaction, or are connected with or constitute parts of a common scheme or plan.” Fed. R. Crim.

13

P. 8(a). While Rule 8 is “broadly construed in favor of joinder,” U.S. v. Jawara, 474 F.3d 565,

14

573 (9th Cir. 2007) (citation omitted), at least one of these three “conditions must be satisfied for

15

proper joinder, and those conditions, although phrased in general terms, are not infinitely elastic,”

16

id. at 573-74 (quoting U.S. v. Randazzo, 80 F.3d 623, 627 (1st Cir. 1996)). “[A] valid basis for

17

joinder should be discernible from the face of the indictment.” Id. at 572-73. Rule 14 provides for

18

relief, including “separate trials of counts,” where joinder of offenses “appears to prejudice a

19

defendant or the government.” Fed. R. Crim. P. 14(a).

20

Counts One through Three of the second superseding indictment, which Defendant seeks

21

to sever, stem from his alleged involvement in the armed robbery of a gas station on November

22

21, 2015. See Dkt. No. 40 ¶¶ 1-3. Count Four charges Defendant as a felon in possession of a

23

firearm, id. ¶ 4, and Counts Eight through Sixty-Four are related to Defendant’s alleged

24

involvement in a firearm distribution ring, see id. ¶¶ 8-32. The government’s asserted basis for

25

joinder of Counts One through Three with the remaining counts is that “the robbery furthered the

26

conspiracy [alleged in the remaining counts] by providing an infusion of cash for the

27

coconspirators to use to fund the purchase of firearms from the Reno-based conspirators.” Dkt.

28

No. 164 at 8. The government further contends that although the firearms allegedly used by
AW - 020

11

Case 4:16-cr-00516-HSG Document 208 Filed 04/16/18 Page 12 of 13

1

Defendant during the robbery were “not specifically identified by the government,” they “are

2

consistent with many of the semiautomatic handguns purchased by straw purchasers for delivery

3

to [Defendant] and [co-defendant] De La Cruz prior to the robbery.” Id. The government also

4

notes that “[t]he robbery occurred in the midst of the gun trafficking conspiracy, with planning of

5

both occurring nearly simultaneously.” Id.
The purported connection between the offenses is not discernible from the face of the

United States District Court
Northern District of California

6
7

second superseding indictment.3 The government theorizes that the robbery provided an “infusion

8

of cash” for the firearm distribution ring’s operations—even though the robbery is alleged to have

9

taken place approximately eight months after the start of the alleged gun-trafficking conspiracy.

10

Compare Dkt. No. 40 ¶¶ 1-3 (alleging that robbery took place on November 21, 2015), with id. ¶

11

14 (alleging that gun-trafficking conspiracy began no later than March 2015). Moreover, although

12

the government argues “that Winn . . . used guns during the robbery that they received as part of

13

the gun trafficking conspiracy,” it also concedes that “to be fair we have not identified the specific

14

guns used during the robbery.” Dkt. No. 164 at 2. Last, the government’s assertion regarding the

15

temporal proximity of the robbery and the gun-trafficking conspiracy, standing alone, is an

16

insufficient basis for joinder. See Jawara, 474 F.3d at 575 (stating that “a close temporal

17

relationship is not, in and of itself, a sufficient condition for joinder”).
Consequently, the Court finds “no direct connection between the acts other than

18
19

[Defendant’s] participation in both events.” See id. There is also a high potential for undue

20

prejudice in these circumstances, given the nature of the armed robbery charges. See U.S. v.

21

Johnson, 820 F.2d 1065, 1070 (9th Cir. 1987) (stating that joinder “may prejudice a defendant”

22

where, inter alia, “the jury may use the evidence of one of the crimes charged to infer . . . guilt of

23

the other crime or crimes charged,” or where “the jury may cumulate the evidence of the various

24
25
26
27
28

3

In support of its argument that the alleged robbery “provid[ed] an infusion of cash for the” gun
trafficking conspiracy,” see Dkt. No. 164 at 8, the government introduces text messages that
purport to show that Defendant “stole at least $1,000 from the gas station during the robbery,”
then “shortly after the robbery . . . drove to Reno with his cousin . . . to pick up firearms from [codefendant] Straight,” see id. at 3-5. Even assuming that this evidence were sufficient to establish a
basis for joinder, the Court can consider only the face of the indictment to determine whether
joinder of offenses under Rule 8 is appropriate. See Jawara, 474 F.3d at 572-73.
AW - 021 12

Case 4:16-cr-00516-HSG Document 208 Filed 04/16/18 Page 13 of 13

1

crimes charged and find guilt when, if considered separately, it would not so find”) (quoting Drew

2

v. U.S., 331 F.2d 85, 88 (D.C. Cir. 1964)). Joinder of the offenses is therefore inappropriate, and

3

Counts One through Three must be tried separately.

4

III.

5

Accordingly, for the foregoing reasons, Defendant’s motion to suppress as to statements he

6

made during the search of his home on January 20, 2016 is DENIED WITHOUT PREJUDICE,

7

while the remainder of the motion is DENIED. Defendant’s motion to sever is GRANTED. The

8

Court further SETS a status conference for April 23, 2018 at 2:00 p.m. in order to schedule the

9

trials in this case. In advance of that date, the parties should meet and confer regarding their

10
11
United States District Court
Northern District of California

CONCLUSION

12

availability for trial.
IT IS SO ORDERED.
Dated: 4/16/2018

13
14
HAYWOOD S. GILLIAM, JR.
United States District Judge

15
16
17
18
19
20
21
22
23
24
25
26
27
28
AW - 022

13

Case: 18-10473, 07/22/2020, ID: 11761651, DktEntry: 63, Page 1 of 1

FILED
JUL 22 2020

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

UNITED STATES OF AMERICA,

No.

Plaintiff-Appellee,

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

18-10473

D.C. No.
4:16-cr-00516-HSG-1
Northern District of California,
Oakland

v.
ANDRE MARTEL WINN,

ORDER

Defendant-Appellant.

Before: BERZON and IKUTA, Circuit Judges, and LEMELLE,* District Judge.
A majority of the panel has voted to deny appellant’s petition for panel
rehearing. Judge Berzon voted to grant the petition for panel rehearing.
Judge Berzon and Judge Ikuta voted to deny the petition for rehearing en
banc, and Judge Lemelle so recommended. The petition for rehearing en banc was
circulated to the judges of the court, and no judge requested a vote for en banc
consideration.
The petition for rehearing and petition for rehearing en banc are DENIED.

*

The Honorable Ivan L.R. Lemelle, United States District Judge for the
Eastern District of Louisiana, sitting by designation.

AW - 023

Case 4:16-cr-00516-HSG Document 150-1 Filed 01/15/18 Page 7 of 48

SUPERIOR COURT OF CALIFORNIA
County of ALAMEDA

I SEARCH wARRANT I
THE PEOPLE OF THE STATE OF CALIFORNIA
to any peace officer in Alameda County

·n,.,;.... ~,,

.Warrant N o . - - - - - -

The affidavit below, sworn to and subscribed before me, has established probable cause for this search warrant which you
are ordered to execute as follows:
Place(s) to be searched: Depibed in Exhibit lA, atlaphed hereto and incorporated by reference.
Property to be seized: Described in E~bit lB, attached hereto and incorporated by reference.
Night service: [If initialed by judge] For good cause, as set forth in the Statement of Probable Cause, night service
is authorized: _ _ __
Disposition of property: All property seized pursuant t~ this search warrant shall be retained in the affiant's custody
pending further court order pursuant to Penal Cod~ §§ 1528(a), 1536.
/

~....~ .

"Z.-t.> ,

i::taleand time warrant issued

~

1

4

, O "'"~

""2

~ ..-

t ~,/{_ ~

Judge of the Superior Court

..
Affiant's name and agency:

•AFFIDAVIT•
f ~ ,1lJJ I ~ po

Incorporation: The facts in support of this warrant are contained in the Statement of Probable Cause which is incorporated
by reference. Incorporated by reference and attached hereto are Exhibit lA, describing the place(s) to be searched; and
Exhibit lB, describing the evidence to be seized.
Evidence type: (Penai Code§ 1524)
a Stolen or embezzled property.
@Property or things used as a means of committing a felony.
a Property or things in the possession of any person with the intent to use it as a means of committing a public offense,
or in the possession of another to whom he or she may have delivered it for the purpose of concealing it or
preventing its being discovered.
ftl Property or things that are evidence that tends to show a felony bas been committed, or tends to show that a
particular person has committed a felony.
a Property or things consisting of evidence that tends to show that sexual exploitation of a child, in violation of Penal
Code§ 311.3, or possession of matter depicting sexual conduct ofa person under the age of18 years, in violation of
Penal Code § 311.11 has occurred or is occurring.
D Firearms, deadly weapons: The warrant authorizes a search for a deadly weapon in the following premises:
5150: The premises are occupied or controlled by a person who is in custody on a 5150 W&I hold.
Domestic violence: The premises are occupied by a person arrested for a domestic violence incident involving
threatened hann.
No firearms order: The premises are owned or controlled by a person who is prohibited from possessing firearms
pursuant to Family Code§ 6389.
li'.l Night Service: [If checked] Authorization for night service is requested based on infonnation contained in the Statement
of Probable Cause, filed herewith.
Declaration: I declare under penalty of perjury that the infonnation
includinf all incorporated documents, is true.

'~JfJ\\~

Date\

AW - 024

AMW-US-000105

Case 4:16-cr-00516-HSG Document 150-1 Filed 01/15/18 Page 8 of 48

Exhibit 1A - Place(s) to be searched:
1. The residence located at 3205 Beaumont Ave, Oakland, CA 94602, located on the second story,
north/east apartment. Per surveillance conducted at this apartment, there are no visible markings
on the door of this unit but there is a black metal security door. This building is hereafter
described as a 'multiple unit two story apartment complex, being tan in color with white, brown
and brick trim. The bottom floor of the btiilding has two apartment units and the second story has
two apartment units. The black numbers, "3205" are affixed to the front of the building on a
white facia board and face Beaumont Ave. Each unit has an assigned garage. Places to be
searched are to include any and all detached and attached garages associated to the residence,
storage sheds, lockers, mobile and immobile vehicles located on the property that are associated
to WILLIAMS, boats, trailers, recreational vehicles.
2. Any red Camaro determined to be owned or under the dominion and control of WILLIAMS.
3. A white LG touch screen phone located on the person of WILLIAMS during his arrest on
1/20/16 at 0930 hours. ·

AW - 025

AMW-US-000106

Case 4:16-cr-00516-HSG Document 150-1 Filed 01/15/18 Page 9 of 48

Exhibit 1B - Property to be Seized:

1. Any paintings, drawings, photographs or photograph albums depicting persons, vehicles, weapons,
or locations which may appear upon observation to be relevant on the question of gang membership
or association, or which may depict items sought and/or believed to be evidence in the case being
investigated with this warrant, or which may depict evidence of any criminal activity.
2. Clothing consistent with items of clothing worn by the suspects during the commission of this
incident to include a blue Polo brand hooded sweatshirt, blue jeans and tan boots.
3. Any address books, lists of, or single references to, addresses or telephone numbers of persons who
may later be determined to belong to or be affiliated with the suspect.
4. Articles of personal property which tend to establish the identity of person(s) exercising dominion
and control of said premises consisting in part of and including telephone/utility bills and
statements, completed tax forms/returns, rent/mortgage receipts and statements, canceled mail
envelopes, probation/parole orders, photographs, keys, and vehicle registration documentation.
5. Firearms including short-barreled shotguns, assault-type weapons, pistols, rifles and shotguns,
ammunition, and other deadly weapons that are commonly possessed illegally by gang members or
persons identified in this investigation that are involved in a conspiracy using the listed weapons as
means of intimidation on rival gang members or other members of the community.

6. Photographs of the residence/location to be searched
7. Cellular telephones, smart cellular phones and electronic tables
8. Evidence of street gang membership or affiliation with any street gang, including, but not limited
to, any reference to any Case Boys Oang/4 Letter Oang/4'S or Money Team/Stubby/ENT criminal
street gangs, any drawings or miscellaneous writings, or objects, or graffiti depicting gang
members' names, initials, logos, monikers, slogans, or containing mention of street gang
membership affiliation, activity, or identity.

AW - 026

AMW-US-000107

Case 4:16-cr-00516-HSG Document 150-1 Filed 01/15/18 Page 10 of 48

STATEMENT OF PROBABLE CAUSE

Your Affiant, Detective Steven L. Cesaretti #347, says that the facts in support of the issuance
of the search warrant are as follows:
Affiant is currently assigned as a Persons Crimes Detective in the Criminal Investigations Division of the San
· Leandro Police Department and been employed with the San Leandro Police Department since 2012. Affiant
was previously employed by the City of Union City Police Department. During my employment there, I was
assigned as the Major Crimes Detective in the Investigations Section of the Union City Police Department.
Affiant has investigated well over 400 criminal offenses, including, but not limited to murder, violent assaults,
robberies and criminal street gangs offenses. I have received specialized training through department
sponsored classes as well as outside related classes. Affiant has bad training in the field of criminal street gang
investigation, identity theft, illegal narcotics, sexual assault and property crimes including but not limited to;
1. One thousand fifty (1050) hour police academy at the Alameda County Sheriff's Office Regional
Training Center Dublin, California in 2005.
2. A forty (40) hour course of basic Interview and Interrogation Training, Behavior Analysis Training
Institute at Santa Rosa, California in 2005.
3. A twenty four (24) hour Search Warrant course, South Bay Training Academy, San Bruno,
California in 2007.
4. A thirty two (32) hour gang conference presented by Central Coast Gang Investigators in San Jose,
California 2007.
5. A twenty four (24) hour gang awareness course provided by the Sacramento County Sheriff's Office
in Sacramento, California 2007
6. An eight (8) hour Identity theft and methamphetamine investigation class presented by California
Narcotics Officers Association Dublin, California, 2007.
7. An eight (8) hour Asian Street Gang Investigation course presented by California Narcotics Officers
Association Dublin, California, 2008.
8. A four (4) hour Criminal Street Gang Update course presented by Agent Derting of the South.em

Alameda County Gang Violence Suppression Task Force Union City, California, 2008.
9. A thirty six (3 6) hour Officer Involved Shooting course presented by the California Department of
Justice Advanced Training Center in Tahoe, California, August 2008.
10. A forty hour (40) Homicide Investigation course presented by San Jose State University,
Administration of Justice Bureau in San Jose, California, April 2009.
9. On 3/17/15, I was qualified as, and testified in the capacity of an expert concerning the possession
of methamphetamine for sales during court proceedings in the Hayward Hall of Justice.

AW - 027

AMW-US-000108

Case 4:16-cr-00516-HSG Document 150-1 Filed 01/15/18 Page 11 of 48

During my career, I have conducted and participated in hundreds of investigations involving various criminal
violations to include attempted murders and weapon based assaults. In conducting these investigations, I have
used a variety of investigative techniques and resources, including physical and electronic surveillance and
various types of informants and cooperating sources. By virtue of my training and experience, I have become
familiar with the methods used by suspects, or those associated with gang related shootings to conceal
evidence of their crime(s). I am aware that suspects whom commit these crimes often use residential and
cellular telephones to avoid detection by law enforcement. It is also my experience that these violent
offenders and co-conspirators often use cellular telephones and residential telephones that are not subscribed
to their own names to avoid detection by law enforcement. I am also aware through my training and
experience that individuals involved in violent crimes often use telephones to arrange their crimes or
coordinate with co-conspirators.
For the purpose of this search warrant affidavit, I will make reference to a target phone number of (510)6884710, which affiant believes belongs to a cellular phone owned and possessed by our identified suspect, James
Williams, (WILLIAMS hereafter).
Your affiant alleges that the following is true based upon information received through Affiant's own
investigation and through official police channels:
On 1/14/16 at 183 7 hours, SLPD patrol units were dispatched to Bayfair Mall in San Leandro on a report of
two suspects shooting at each other in the parking lot. Upon arrival, responding officers located evidence and
witnesses that provided information consistent with two subjects shooting at each other in the parking lot. All
involved suspects had fled the scene and were not immediately located. Officers on scene located two subjects
who were associated with one of the shooters and they were both later interviewed by SLPD Detectives as
witnesses. One of those witnesses, Robert Carter, initially lied about his identifying information as he was
ultimately found to have an active warrant for his arrest. He was arrested for the warrant and for a violation of
148.9 PC, but was determined to not be one of the suspects in the shooting.
During an interview with detectives, Carter advised all involved parties were in Sheik Shoes inside Bayfair
Mall. He was with a group of 5 other subjects when they observed another subject
On 1/15/16 at 0800 hours, Sgt Anthony contacted me via phone and advised me of this shooting at Bayfair
Mall. During his initial investigation, he obtained information from Cater that all involved suspects for this
shooting were inside Sheik Shoes in Bayfair mall. Sgt Anthony stated one of the identified suspects was a tall
BMA wearing a hooded Polo brand sweatshirt, blue jeans and tan boots. He located an image of this suspect
via Bayfair Mall security cameras. The suspect was observed leaving the mall, after his confrontation with the
other suspects inside Sheik Shoes. He was observed with a blue shopping bag with blue writing, consistent
with the shopping bags used by Shiek Shoes in the mall security video. Based on this image, I believed the
suspect made a purchase from the business.
On 1/15/16 at 1030 hours, I met with the manager of Sheik Shoes, Braulio Ramirez at the business. Hi:,
showed me the instore surveillance system which we reviewed to the time of this incident, 1800-1830 hours
approximately.
Upon review of the video, I observed a tall BMA wearing a blue Polo hooded sweatshirt at the register
picking up a pair of Timberland boots at approximately 1810 hours. Ramirez used the date and time stamp
information from the video to find the associated transaction. Ramirez advised the suspect arrived at the
business to pick-up the boots as he had already purchased them. He also stated the suspect had an account
with the business with associated identifying information which he provided me in the form of a "Special
Orders Activity,, sheet. The transaction information associated to the suspect who picked up the boots was I t,'/.J
, { ttO , ~
.
I""""'
AW - 028

AMW-US-000109

Case 4:16-cr-00516-HSG Document 150-1 Filed 01/15/18 Page 12 of 48

listed as "James Williams" with an associated phone number of (510)688-4710. Ramirez advised this would
be an accurate phone number as the business would have contacted WILLIAMS to pick up his order.
I obtained several still images of James Williams from the business surveillance video.
Based on the information provided by Ramirez, I conducted several records checks of the name James
Williams and the associated target phone number. I located a subject in CRIMS with the same name and
descriptors. I compared the booking photos for James Williams with a date of3/8/2013 and another with a
date of 11/5/2014 to the images of the suspect obtained from Sheik Shoes surveillance system and determined
them to be the same person. Further record checks showed an arrest report for WILLIAMS from 11/5/2014
that listed his cell phone number as being, (510)688-4710.
Based on the information and images obtained from Sheik Shoes, and my comparison to the images and
information obtained via CRIMS, I believed WILLIAMS to be one of our suspects responsible for this
shooting.
I created a sequential photo line-up via CRIMS which included a photo of WILLIAMS.
Based on the location of WILLIAMS identifiers and his current phone number as identified via Sheik Shoes
and CRIMS, Sgt Anthony authored a Pen Register search warrant on 1/17/16, allowing for 30 days of
continuous GPS tracking of WILLIAMS cellular phone. Based on information obtained via the Pen Register,
it appeared WILLIAMS phone was located in the area of Beaumont Ave and E 32nd Ave in Oakland. SLPD
detectives conducted several surveillances in the area and ultimately located the apartment
On 1/19/16, Det Benz and I met with Carter as he was in custody at Santa Rita Jail. I advised carter he was not
required to speak with me and I did not think he was responsible for this shooting. He agreed to speak with
me and provided me a statement.
Carter stated this incident stemmed from a gang related confrontation that occurred in Juvenile Hall between
one of his friends he verbally identified as, "Ill Will", and the other involved suspect, I believed to be
WILLIAMS. Carter openly admitted he and the group he was with at the mall during this incident w~re all
members of the criminal street gang, Money Team/Stubby/ENT. His friend Ill Will, who he also identified via
a still image obtained from Sheik Shoes surveillance video, recognized WILLIAMS when they were in the
business. Carter stated Ill Will told the group WILLIAMS was a member of the criminal street Case Boys
Gang, a rival street gang to Money Team/Stubby/ENT. Ill Will told the group that while in juvenile hall, the
two had a confrontation about each other's gang affiliation when it was discovered they were from rival
gangs. Carter stated be believed this shooting was related to both subjects criminal street gang affiliation.
Based on my training and experience, I know Money Team/Stubby/ENT and Case Boys Gang have had a
violent rivalry for the past 10 years, resulting in numerous violent crimes to include shootings and homicides.
Carter stated ill Will and WILLIAMS exchanged words inside the business and it almost escalated to
violence. WILLIAMS exited the business and began walking toward an exit of the mall. Ill Will, Carter and
the other members of their group followed WILLIAMS out of the mall, near the exit closest to Target. Upon
exiting, WILLIAMS, immediately went to an older red Chevrolet Camaro that was parked and unoccupied in
the parking lot, and obtained a firearm from inside. Ill Will began verbally taunting WILLIAMS and
continually walked closer and closer to him. WILLIAMS then fired several rounds in the air and then aimed
and fired the gun it at Ill Will, missing him. Carter stated he then ran for safety and was later contacted by
police.
I left the interview and Det Benz conducted the sequential photo line-up with Carter. During the line-up,

~ /-vo l:J:,
AW - 029

AMW-US-000110

Case 4:16-cr-00516-HSG Document 150-1 Filed 01/15/18 Page 13 of 48

Carter selected the photo of WILLIAMS and tentatively identified him as the suspect in this incident, stating,
· "his eyes and skin color look the same".·
On 1/19/16 at 1400 hours, Det Benz and I met with witness Yenifer Garcia at Bayfair Mall where she is
employed. During our interview with her, she stated she was approximately 10' away from one of the shooters
during this incident, as she was sitting in her vehicle in the parking lot of the mall. She described the shooter
as a BMA, 6'00", thin build wearing a royal blue jacket and holding a Sheik Shoes shopping bag, consistent
with WILLIAMS. She observed this subject enter a red Camaro, place the shopping bag inside and obtain a
firearm. The suspect then fired two rounds into the air and then fired one round at a group of subjects nearby.
Det Benz conducted a sequential photo line-up with Garcia and she selected the photo of WILLIAMS as the
involved shooter during this incident stating, "His facial features are similar to the person I recall seeing
shoot".
On 1/19/16 at 2100 hours, Det Kritikos and Det Sgt Anthony were conducting surveillance of the apartment
building located at 3205 Beaumont Ave in Oakland. Det Kritikos positively identified WILLIAMS as he was
observed exiting one of the apartment doors, located on the second story of the business, NIE unit. It was the
only apartment door located on the NIE corner of the second story of the building. Det Kritikos was able to
observe WILLIAMS exit the door, look around the area, and reenter the door, securing it.
Based on Det Kritikos positive identification of WILLIAMS at the apartment, his observations of his
WILLIAMS exiting an apartment door, reentering and securing the door of the apartment, I believe
WILLIAMS has dominion and control of the residence and thus will have property related to this
investigation inside it.
Based on the identification and observations made by Det Kritikos and Det Sgt Anthony, there were no
markings or indicators located oi;i the doo~ to identify which apartment it was. However, based on
observations by Det Kritikos and Sgt Anthony, it was the only door on the NIE comer of the second story of
the building.
WILLIAMS was observed leaving this apartment on 1/20/16 at 0830 hours and was continually surveilled by
SLPD detectives. He was followed to the area of the San Leandro Bart Station where he was arrested without
incident. During his arrest, the listed white LG cellular phone was located on his person. Affiant requested
authorization to conduct a search of this phone for evidence pertaining to this incident.
Based on my training and experience, I know the following:
Ba;5ed on my training and experience, I know that persons who participate in a street gang and commonly
associate with other known members will possess evidence of that participation in the gang. This includes:
possession of drawings, clothing with gang identification on it, original and copies of newspaper articles
reporting on gang related crimes, video tapes of gang gatherings, posters, gang rosters, personal address/
phone books with gang member names, addresses and phone numbers, school papers with gang drawings,
letters from other gang members in penal institutions, and any other item decorated with gang graffiti. These
items are essentially trophies, which memorialize the accomplishments of the gang or the individual gang
members for crimes committed against other gang members or other members of the community. Tuey
become part of a history of a gang and are retained as a scoreboard of the gang's accomplishments. They are
a source of pride and are kept at the individual gang member's residence, gang member's vehicles or on the
gang member's person.
Based on my training and experience, I know that gang members that participate in violent crimes will retain
the clothing they wore during those crimes in their homes and in their vehicles.

, /1,0 (i
AW - 030

AMW-US-000111

Case 4:16-cr-00516-HSG Document 150-1 Filed 01/15/18 Page 14 of 48

Based on my training and experience, I know that gang members, who are involved in assaults and other
criminal activity, will often arm themselves with other deadly weapons. I believe that handguns or
miscellaneous gun pieces, gun cases, ammunition, gun cleaning items or kits, holsters, ammunition,
ammunition belts, ammunition packaging, targets, expended pieces of lead, and photographs of ftrearms and
other deadly weapons will be found at the above- described premises or vehicles. Based on my training and
experience, I know that individuals, especially those involved in gang related assaults involving weapons, will
retain access to weapons for protection from retaliation or for further use in acts of aggression, due to the
value of the weapon itself, and to the enhanced "bragging" value attached to such a weapon.
Based on training and experience, I know that people involved in illegal activities often possess a police radio,
scanner. A police radio scanner is a radio devise by which a person can monitor fire, police and other
emergency unit communications. I know that people who engage in illicit activities often will have such
scanners tuned to the police channel in their area to assist them in being prepared in the event the police are
about to execute a search warrant of their premises.
Based on my training and experience, I know individuals who are involved in criminal activities will often
hide weapons and evidence of their criminal activity inside storage lockers, outbuildings, sheds, garages, or
trash containers at the residence.
Based on my training and experience, I know it is possible that evidence of gang membership, affiliation,
association, locations, plans, correspondence, and criminal intent may be located on cellular phones, smart
phones and electronic tablets. Affiant request the ability to immediately conduct a search of any and all seized
cellular phones for evidence as it relates to this investigation in the form of communications, text messages,
social media communications, images and videos. Concerning cellular phones, by virtue of my training and
experience, affiant knows suspects who commitviolent crimes to include weapon based assaults typically
communicate between family and associates to aide in their escape and/or to conspire to conceal or destroy
evidence. Co:nununications between co-conspirators is most frequently accomplished by use of
telecommunications devices, including hard line telephones and cellular telephones.
I know that a review of the telephone records maintained by the cellular telephone service provider for
telecommunication devices used by violent crime suspects has resulted in the identification of previously
unidentified co-conspirators, locations utilized by co-conspirators in the furtherance of illegal activities and
other evidence of the crimes being investigated.
I know modem "Smart" phones can store digital media items such as videos, photos as well as "meta data''
associated to digital media The information contained within digital media and meta data can aid in
identifying involved participants, locations, and further investigative leads.
I know that multiple subjects engaged in violent assaults where more than one person participates, often act as
makeshift criminal organization, and as such, will often use their cellular telephones to communicate with
each other before. during and after the commission of criminal acts. These communications will often include
plans of executing assaults, mapping of getaway routes, other involved members, involved victims, disposal
or hiding of evidence, stash houses and location of weapons and vehicles.
I know that the location of these communications can often help in identifying primary suspects, accomplices,
aiders and abettors, victims, associates, witnesses and any plans of conspiracy.
Based on my training and experience, I know that persons who reside in residences will have indicia to those
residences. This indicia indicates that the person has possession, dominion and control over the residence in
which they are currently residing.

AW - 031

AMW-US-000112

Case 4:16-cr-00516-HSG Document 150-1 Filed 01/15/18 Page 15 of 48

Based on my training and experience, and the facts contained within this affidavit, I believe there is probable
cause to believe that all or part of the items listed in Exhibit lB of this document will be found at the
residence of James WILLIAMS.
Affiant believes a search of the person and residence of the listed "Case Boys Gang" member will result in the
recovery of evidence of ongoing participation in a criminal street gang, and indicia as listed in the attached
Exhibit lB. Gang indicia located at the listed residence will be used as evidence in seeking a criminal street
gang enhancement pursuant to 186.22(a)&(d) PC. It is my opinion that this assault with a firearm was
committed in order to promote the violent reputation of the criminal street gang "Case Boys Gang" and
thereby further promoting the gang as a violent criminal organization.

I declare under penalty and perjury that the foregoing in true and correct to the best of my knowledge
and belief. Wherefore, affiant prays that a search warrant be issued, based upon the above facts for the
seizure of said property.

Subscribed and sworn to me on

Signature of Magistrate

AW - 032

.,.

AMW-US-000113

Case 4:16-cr-00516-HSG Document 171 Filed 01/30/18 Page 1 of 25

AW - 033

Case 4:16-cr-00516-HSG Document 171 Filed 01/30/18 Page 2 of 25

AW - 034

Case 4:16-cr-00516-HSG Document 171 Filed 01/30/18 Page 3 of 25

AW - 035

Case 4:16-cr-00516-HSG Document 171 Filed 01/30/18 Page 4 of 25

AW - 036

AW - 037

AW - 038

AW - 039

AW - 040

AW - 041

AW - 042

